<html>
<title> - DEPARTMENT OF JUSTICE'S GUIDANCE ON ACCESS TO POOLS AND SPAS UNDER THE ADA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
DEPARTMENT OF JUSTICE'S GUIDANCE ON ACCESS TO POOLS AND SPAS UNDER THE 
                                  ADA

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON THE CONSTITUTION

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 24, 2012

                               __________

                           Serial No. 112-112

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
73-962                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8aedfae5cae9fff9fee2efe6faa4e9e5e7a4">[email&#160;protected]</a>  


                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

           Richard Hertling, Staff Director and Chief Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

                    Subcommittee on the Constitution

                    TRENT FRANKS, Arizona, Chairman

                   MIKE PENCE, Indiana, Vice-Chairman

STEVE CHABOT, Ohio                   JERROLD NADLER, New York
J. RANDY FORBES, Virginia            MIKE QUIGLEY, Illinois
STEVE KING, Iowa                     JOHN CONYERS, Jr., Michigan
JIM JORDAN, Ohio                     ROBERT C. ``BOBBY'' SCOTT, 
                                     Virginia

                     Paul B. Taylor, Chief Counsel

                David Lachmann, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                             APRIL 24, 2012

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Chairman, Subcommittee on the 
  Constitution...................................................     1
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Ranking Member, Subcommittee on the 
  Constitution...................................................     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, Ranking Member, Committee on the 
  Judiciary, and Member, Subcommittee on the Constitution........     5

                               WITNESSES

Hemant D. Patel, Chairman, Asian American Hotel Owners 
  Association
  Oral Testimony.................................................     9
  Prepared Statement.............................................    12
Christa Bucks Camacho, Senior Executive Service Candidate 
  Development Program, Social Security Administration
  Oral Testimony.................................................    18
  Prepared Statement.............................................    20
Ann Cody, Director, Policy and Global Outreach, Blazesports 
  America
  Oral Testimony.................................................    21
  Prepared Statement.............................................    24
Minh N. Vu, Partner, Seyfarth Shaw LLP
  Oral Testimony.................................................    26
  Prepared Statement.............................................    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, Ranking 
  Member, Committee on the Judiciary, and Member, Subcommittee on 
  the Constitution...............................................     6
Material submitted by the Honorable Jerrold Nadler, a 
  Representative in Congress from the State of New York, and 
  Ranking Member, Subcommittee on the Constitution...............    65

                                APPENDIX
               Material Submitted for the Hearing Record

Attachments to the Prepared Statement of Minh N. Vu, Partner, 
  Seyfarth Shaw LLP..............................................    68
The bill, H.R. 4256, the ``Pool Safety and Accessibility for 
  Everyone (Pool SAFE) Act.......................................   175
Material submitted by the Honorable Trent Franks, a 
  Representative in Congress from the State of Arizona, and 
  Chairman, Subcommittee on the Constitution.....................   179
Material submitted by the Honorable Jerrold Nadler, a 
  Representative in Congress from the State of New York, and 
  Ranking Member, Subcommittee on the Constitution...............   197


DEPARTMENT OF JUSTICE'S GUIDANCE ON ACCESS TO POOLS AND SPAS UNDER THE 
                                  ADA

                              ----------                              


                        TUESDAY, APRIL 24, 2012

                  House of Representatives,
                  Subcommittee on the Constitution,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 4:38 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Trent 
Franks (Chairman of the Subcommittee) presiding.
    Present: Representatives Franks, Nadler, Scott, and 
Conyers.
    Staff Present: (Majority) Holt Lackey, Counsel; Jacki Pick, 
Counsel; (Minority) David Lachmann, Subcommittee Staff 
Director; and Heather Sawyer, Counsel.
    Mr. Franks. I just want to welcome all of you today. You 
know, I usually have just a written opening statement, and I am 
going to read that in a moment, but if I could just speak to 
you just for a moment from my heart here. I know that there are 
a lot of people here that are trying to do every good thing 
that you can. And I want you to know there is nobody in the 
world on your side more than I am.
    One of the people in my office, a man named Brian Van 
Hovel, has worked for me for 10 years in this Congressional 
office. He is paralyzed from the neck down. And he is 
absolutely one of the most effective, best workers we have.
    Last year he was the staff member of the year in our 
office. And I want you to know that I care very much about your 
circumstances and the challenges that you have. And this isn't 
about, this hearing today isn't about some attempt to reduce 
access on anybody's part. It is about making sure that the law 
is followed. And in the Administrative Procedures Act, that 
wasn't done. And in a sense, that has two implications, I 
believe, for all of you--or for many of you.
    One, when the rule of law is ignored, it damages and hurts 
the rights of those who are either disabled or weaker than 
others, in the most profound way. Because otherwise, we would 
just have, you know, the survival of the fittest prevail if we 
don't have the rule of law. And secondly, I believe that there 
are some implications to some of the policy here that could 
actually reduce the access of the handicapped and disabled in 
this situation.
    So I just want you to know that. And I hope that we can 
find the best policy here. And this isn't about--we are not 
hearing a bill as it were, we are trying to hear the truth from 
everybody. And I want everybody to have a chance to be heard. 
And I want you to have a chance to be heard. And if we do that, 
if we are respectful to each other, we have a chance do what 
only America has been able to do. With that, I am going to read 
my opening statement, and just want you to know that is just 
something I wanted to say to you.
    I want to welcome you all to this hearing on the Department 
of Justice's Guidance to Access to Pools and Spas Under the 
Americans with Disabilities Act. This hearing is about 
transparency, open debate, and fairness in the regulatory 
process. Without objection, the Chair is authorized to declare 
a recess of the Committee at any time. Congress has given great 
power to Federal regulatory agencies, but we have done so 
within strict limits. A regulatory agency may not exceed the 
authority that Congress has given it, and it must abide by the 
Administrative Procedures Act, or the APA.
    Complying with Federal regulations is time consuming and 
very expensive. The least that Congress can do is to minimize 
the burden of regulation on American job creating and 
businesses to ensure that regulations are imposed according to 
the APA.
    In 2010, the Department of Justice issued a regulation, the 
ADA Standards for Accessible Design, which sets requirements to 
ensure that disabled Americans could access public 
accommodations. These standards were the result of a public 
rulemaking process dating back to 2004 guidelines adopted by 
the United States Access Board, an agency that develops design 
standards for disabled access. Like all new regulations, the 
2010 Standards were subject to a comment period so that 
citizens could express their approval or their concerns, or 
perhaps even their ways of improving them. Like all proposed 
major regulations, the 2010 Standards were also submitted to 
the Office of Management and Budget for analysis of their costs 
and benefits, and then submitted to Congress so it could allow 
or reject them.
    One public accommodation that the 2010 Standards regulated 
was access into and out of swimming pools. Small swimming pools 
were required to have either a sloped entry or a pool lift. 
Larger pools were required to have two accessible means of 
entry, one of which must be a sloped entry or pool lift.
    On January 31 of this year, Department of Justice issued 
what it called a technical assistance document. DOJ claims that 
this document merely interprets the 2010 Standards, but it does 
more by detailing three new pool access requirements. The 
document states that pool lifts must generally be fixed rather 
than portable, pool lifts must remain at pool side and 
operational during all pool hours, and pool lifts cannot be 
shared between pools. Nothing in the 2010 Standards, the 2004 
guidelines on which they were based, or the regulatory record 
drew any distinction between a portable pool lift and a fixed 
lift. The means of how a pool owner complied with the 
requirement to provide access into a pool, whether using a 
portable or a fixed lift, was not an issue, so it was not 
debated and analyzed during the rulemaking process.
    Because DOJ invented these new requirements by 
circumventing the rulemaking process, there was no opportunity 
for the public, Office of Management and Budget, or Congress to 
comment, or any of you for that matter, to comment or analyze 
the DOJ's guidance. This means that there is no adequate record 
of the cost, benefits, and impacts of this guidance. There is 
no record of the costs of buying portable lifts compared to 
construction necessary to install fixed lifts, or 
significantly, the potential risk that children playing around, 
like my 3-year old twins do on a moment's basis, could hurt 
themselves in an elevator attached to a pool.
    DOJ skipped all of those steps that require them to show 
their work when making new requirements, and simply imposed 
their preferred policy. This policy will mean trial lawyers 
bringing more ADA lawsuits against businesses. It could 
actually impact you all in a very negative way. This is why a 
bipartisan group of Congressmen have called on DOJ to delay 
enforcing its so-called interpretations and begin a proper APA 
rulemaking process. Several bills have been introduced to 
address the issue directly, which may be necessary if DOJ will 
not comply with the APA. And I don't know what else to add.
    I want to hear everyone here today. We are going to allow 
the Ranking Member to express his opinion. I am sure he is 
going to beat the tar out of me, and I am ready. Okay? So God 
bless you.
    And with that, I now yield to the Ranking Member of the 
Subcommittee, Mr. Nadler, for his opening statement.
    Mr. Nadler. Thank you, Mr. Chairman. Last week, the 
Subcommittee called a hearing on the Justice Department's 
voting rights enforcement without inviting the Department of to 
testify. Now we have a hearing to examine Department of Justice 
regulations regarding the Americans with Disabilities Act and, 
once again, the Justice Department is not here to speak for 
itself, this time, having been invited much too late, less than 
a week ago, to be able to arrange for testimony today. Instead, 
we have a lawyer representing a hotel association who can speak 
to her clients' interests, but unlike the Justice Department, 
is not obligated to make an objective assessment and issue 
regulations that serve all stakeholders, business owners and 
patrons alike, and achieves the law's underlying purposes.
    As I said at last week's hearing, holding hearings to 
examine the actions of a Federal agency without ensuring the 
agency's presence might do for a kangaroo court, but it should 
not be the standard for the United States Congress. We should 
not be moving forward on this without hearing from DOJ, which 
made clear that if we would delay this hearing by a week they 
would be able to attend. Increasing access and opportunities 
are core goals of the ADA, and are critical to greater 
independence and community integration for people with 
disabilities.
    This law and these goals have always enjoyed widespread 
support. I hope that today's hearing does not signal an erosion 
of our historic bipartisan commitment to the law's guiding 
principles or to our promise of equality for our friends, 
families, co-workers, and neighbors with disabilities. One of 
the ADA's guiding principles is that public entities and public 
accommodations must take ``readily achievable'' steps to 
increase access to existing facilities. The law does not 
require that every step must be taken regardless of burden or 
expense. Rather, it requires only those that are ``easily 
accomplishable and able to be carried out without much 
difficulty or expense,'' which is exactly how ``readily 
achievable'' is defined in the ADA.
    This standard, established by Congress when it passed and 
the first President Bush signed the ADA 22 years ago, was 
sought and supported by the business community because it 
provides flexibility to determine what is achievable based on 
the covered entity's particular circumstances.
    With this flexibility, of course, comes the responsibility 
for determining what is readily achievable for your own 
business. But a mom-and-pop outfit that operates three hotels 
will never be required to take the same steps as the Marriott 
chain. Given this, the current claim that every owner of an 
existing pool will have to install permanent or fixed lifts or 
pay civil penalties or cash settlements rests on an alarming 
and alarmist misreading of the ADA and the accompanying 
regulations.
    The ADA and the new regulations require a hotel to consider 
whether installing a sloped entry into a pool or a fixed or 
permanent lift is ``readily achievable.'' While we have heard 
and anticipate that some of the witnesses will testify today 
that the DOJ has demanded that all pool owners install a 
permanent or fixed lift in every pool, that simply is not the 
case. Here, in fact, is exactly what the Justice Department's 
January 2012 guidelines provide. ``For an existing pool, 
removing barriers may involve installation of a fixed pool lift 
with independent operation by the user to the extent that it is 
readily achievable to do so.'' ``May,'' not ``must'' install a 
fixed lift, and then only to the extent that doing so is 
readily achievable.
    There are compelling reasons why installing a permanent 
lift is preferable to a portable lift, and something that 
should be done if it can be done easily and inexpensively. A 
fixed or permanent lift is available at all times a pool is 
open without the need for staff to locate the lift, ensure it 
is in operating condition, and provide timely and safe 
installation. An underlying goal of the ADA is to achieve 
equality of access and independence. A fixed lift is far 
superior in achieving this goal, as it allows a person with a 
disability to access a pool on the same terms as everyone else. 
A fixed lift also poses no greater safety risk than any other 
means of entry or exit into a pool, and is no more likely to be 
misused by children or others, particularly as lifts become a 
more commonplace feature of our everyday landscape.
    Of course, while a fixed lift or a sloped entry, which is 
another possibility, may be the best options, they simply are 
not required unless ``readily achievable,'' which means if they 
are too hard or too expensive, the law doesn't require either, 
and there is no possibility of civil penalties. The ADA 
requires courts to take into account the size and financial 
resources of the business in determining what is readily 
achievable, which means that small family-owned hotels are 
especially unlikely to have to install new lifts in their 
existing pools. Moreover, the DOJ has always focused 
enforcement of new ADA standards on education and technical 
assistance, making it additionally unlikely for the Department 
to sue any business that has engaged in a good faith effort to 
comply with the law.
    It is also important to remember that this is not something 
that the Obama administration rushed through the regulatory 
process. The foundations for this rule originated under the 
second President Bush. The hotel industry has known about this 
issue for a decade, and has participated at every step of the 
way. Once the rules were finalized in September 2010, the hotel 
industry had an additional 18 months to prepare before the pool 
standards were set to go into effect this month.
    Responding to concerns of some hotel groups, the DOJ has 
already delayed the effective date another 2 months to May 21, 
and is proposing to delay it again until September 2012. While 
these delays are being granted, Americans with disabilities are 
still waiting, and they have already been waiting a very long 
time.
    For these Americans, as for everyone else, access to water 
and the opportunity to swim provides tremendous physical, 
emotional, and social benefits. It allows, for example, a 
teenager in a wheelchair to get in the water and play with her 
peers. A mother can teach her children to swim so that the 
family all can enjoy this activity together. Swimming builds 
strength and self-confidence that translates in other critical 
and practical ways to one's ability to gain greater 
independence by, for example, increasing one's physical 
strength to perform self-care tasks like transferring from a 
wheelchair to a bed.
    We should never lose sight of these and the many other 
benefits that are gained when we live up to the ADA's promises. 
And we certainly should not consider enacting legislation like 
H.R. 4200 or H.R. 4256 that would override a nearly decade-long 
regulatory process that merely sets the guidelines for what 
should be done by a business if readily achievable, and that 
would roll back critical, balanced, and negotiated civil rights 
standards. With that I look forward to hearing from the 
witnesses. I yield back the balance of my time.
    Mr. Franks. And I thank the gentleman. And since the 
Chairman of the full Committee is not available, we will now 
yield to the distinguished Ranking Member of the full 
Committee, Mr. Conyers.
    Mr. Conyers. Thank you very much, Mr. Chairman. And I want 
to welcome all the witnesses. But I especially want to welcome 
all of the citizens who are concerned with this question of how 
we deal with the disabled and these regulations and whether 
they ought to be changed.
    Now, I want everybody to know, because I want to put most 
of my statement in the record, that two bills have been 
introduced that would nullify the Department of Justice's 
regulation regarding access to swimming pools, and I oppose 
both these bills. Now, the fact that every seat in this place 
is taken, we have a couple hundred people outside in the 
hallway trying to get in; we have the access room, 2237, 
already filled up to capacity, it tells everybody on this 
Committee that this is a very important subject and that we 
want to move on it with great care and caution.
    Now, the disabled deserve extra attention, not less 
attention. And what we want to do is try to have a civil 
hearing. We got to remember that everybody on the Committee has 
a right to their own opinion. And you as well have a right to 
your opinion. The only problem is that in a hearing, you can't 
express your opinion, and we express ours and the witnesses 
express theirs.
    So we have to be cordial. It is not like at a baseball 
game, where you cheer when somebody does something that you 
like or you boo when somebody does something you don't like. So 
please bear with us. And if necessary, we will have a follow-up 
to this hearing, or if we don't have another hearing, I haven't 
talked with the Chairman about this, but I am gratified that so 
many people have come to this hearing. It demonstrates how 
important access guaranteed under the Disability Act is to all 
of you.
    And so I welcome you all and thank you for being here. And 
I ask that the rest of my statement be included in the record, 
Mr. Chairman. And I yield back the balance of my time.
    [The prepared statement of Mr. Conyers follows:]

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
 in Congress from the State of Michigan, Ranking Member, Committee on 
      the Judiciary, and Member, Subcommittee on the Constitution

    Thank you, Mr. Chairman.
    Today's hearing will examine regulations issued by the Department 
of Justice in 2010 to enforce the Americans with Disabilities Act of 
1990. That civil rights law was passed with overwhelming bipartisan 
support in both chambers of Congress and has enjoyed the support of 
both parties since, with this Committee voting unanimously to report 
favorably the ADA Amendments Act of 2008. Those bills sought to achieve 
equality of access and opportunity for people with disabilities. Both 
are protective civil rights measures that also take into account and 
balance the practical and financial needs of entities that must comply 
with its requirements.
    Unlike those bipartisan efforts, today we are considering whether 
Congress should undermine the DOJ's ability to enforce one of this 
nation's most important civil rights laws. This effort does not enjoy 
bipartisan support.
    I am especially disappointed that the Justice Department is not 
testifying at today's hearing. It is my understanding that DOJ was 
invited to participate a week ago. As my colleagues are well aware, 
seven days is not nearly enough notice to obtain a witness from DOJ. 
This is the second time in as many weeks that this Subcommittee has 
invited hear critics of DOJ policies without the benefit of a DOJ 
witness. That is not the way to do oversight. There is no way members 
can get a clear and balanced understanding of the issue without hearing 
from the agency that is the subject of the hearing.
    In order to ensure that the Members are fully informed, I would ask 
the distinguished Chairman to commit to holding another hearing on this 
topic so that the Justice Department can participate before there is 
any effort to move legislation on this issue through the Committee. I 
believe that failing to do so would undermine the credibility of any 
legislative action we might take in the future.
    Despite my disappointment that DOJ is not here to provide its 
perspective, I am heartened that we have here with us today two 
witnesses who can speak to the very real harm that congressional 
interference in the enforcement of the ADA's accessibility standards 
will cause for people with disabilities. One of these witnesses was 
invited by the Minority, and the other was invited by the Majority. 
That should not go without being noted. Their testimony should remind 
all of us why it is critical for us to move forward--not backwards--on 
enforcing the ADA.
    We need to keep three very important points in mind as we consider 
today's testimony:
    First: The regulations at issue did not come out of the blue. They 
reflect two decades of public policy, and a decade of work on the 
particular standards. They have been the subject of public notice, 
public comment, and extensive scrutiny.
    Second: Legislation that would undercut or eliminate this rule is 
ill-considered and lacks the carefully crafted balance that is 
reflected in the Americans with Disabilities Act and the rule itself.
    Third: The rule itself is carefully crafted, flexible, and will 
not--contrary to many concerns that have been raised--impose an undue 
burden on affected businesses. Indeed, that burden is precluded not 
just by the rule, but by the ADA itself.
    These regulations are not something that the Obama Administration 
cooked up and rammed through the regulatory process. The hotel industry 
has known about this issue for a decade, and the guidelines 
incorporated in the 2010 regulations were developed during the Bush 
Administration. The Access Board first issued pool lift standards in 
its accessibility guidelines for recreation facilities issued in 2002, 
which it then incorporated into its 2004 ADA Accessibility Guidelines.
    The pool lift standards of the 2010 ADA regulations come directly 
from those 2004 guidelines, and follow a 6-year public notice and 
comment period, which started with issuance of an Advanced Notice of 
Proposed Rulemaking in 2004 and a two Notices of Proposed Rulemaking in 
2008. The hotel industry and other key stakeholders participated in 
this process every step of the way.
    Once the regulations were finalized in September 2010, the hotel 
industry had another 18 months to prepare for the pool lift standards 
to go into effect, which was scheduled to happen on March 15, 2012. 
That date has now been delayed, with likely extension to September 
2012, to provide additional guidance requested by the industry.
    Two bills have now been introduced in the House--H.R. 4200 and H.R. 
4256--that would nullify DOJ regulations regarding access to swimming 
pools. H.R. 4200 currently has 18 co-sponsors; all are Republicans. 
H.R. 4256 has 57 cosponsors, only one of whom is a Democrat.
    H.R. 4200 would strip DOJ entirely of its ability to enforce any of 
its regulation regarding access to swimming pools. H.R. 4256 would 
leave some of the DOJ's regulatory guidance on swimming pools intact 
but would excuse public accommodations from providing a fixed lift for 
entry into a pool--that is, a lift that is affixed to the deck and 
available whenever a pool is open to guests--even where installing such 
a lift is ``readily achievable.'' That term--``readily achievable''--is 
defined in the ADA as meaning ``easily accomplishable without much 
difficulty or expense'' (42 U.S.C. 12181(9)). Thus, H.R. 4256 excuses a 
hotel from installing a fixed lift even where it would be easy and 
inexpensive.
    It is important to make clear that, contrary what we have heard, 
neither the regulations, nor the January 2012 guidance require a fixed 
permanent lift in all cases, and the Justice Department already has 
taken steps to make this additionally clear.
    What is required by the ADA and the DOJ's regulatory guidance is 
for pool owners to take steps to accomplish what is ``readily 
achievable'' based on the financial and other resources of the covered 
entity. The best option, if ``readily achievable,'' is a fixed, 
permanent lift or sloped entry into a pool, but if it is not ``readily 
achievable,'' it is not required.
    There are important reasons why fixed and permanent pool lifts are 
preferable where they are readily achievable.

        <bullet>  A compliant fixed pool lift ensures that the lift 
        will be consistently mounted for safe and independent use in an 
        accessible location that complies with the requirements in the 
        2010 Standards and that persons with disabilities will not 
        experience discrimination on the basis of their disability.

        <bullet>  Prior to the pool requirements in the 2010 Standards, 
        many older portable lifts were not independently operable and 
        difficult to use by the swimmer. Because of these inherent 
        flaws, individuals with disabilities did not feel safe using 
        them and ultimately stopped asking for these lifts to be 
        deployed.

        <bullet>  The use of non-fixed portable lifts that are made 
        available only on the request of a person with a disability 
        raises safety concerns because of the possibility that the lift 
        will not be assembled and located properly in relationship to 
        the pool for the safe and independent use of a person with a 
        disability.

        <bullet>  In addition to safety concerns, the use of non-fixed 
        portable lifts only on the request of a person with a 
        disability significantly increases the likelihood that persons 
        with disabilities will not be provided the equal opportunity 
        the ADA requires in order to prevent discrimination on the 
        basis of disability.

    But even though fixed/permanent is the better option, it is not 
legally required in all cases. While businesses that can install a 
permanent lift relatively easily and inexpensively should, those that 
cannot must simply consider what else might be ``readily achievable.'' 
This might be, for example, providing a portable lift or transfer wall. 
Or it may mean doing nothing for the time being as the ADA also 
recognized that sometimes a business simply is not in a position to do 
anything until its financial circumstances change.
    It is therefore false to claim that all owners of existing pools 
are legally required to install permanent lifts.
    It is also not the case that businesses face heavy monetary 
penalties if they do not install permanent lifts. While a court may 
assess civil penalties in a suit brought by the Justice Department to 
enforce Title III's public accommodation requirements, a court must 
first consider ``any good faith effort or attempt to comply with [Title 
III] by the entity,'' making both the pursuit and imposition of civil 
penalties unlikely in any case involving a public accommodation that 
has made a good faith effort to comply with the law. Private parties 
are not entitled to money damages and may only obtain attorneys fees if 
they prevail in court. Businesses that voluntarily take corrective 
action may thus avoid liability for attorneys' fees.
    So, Mr. Chairman, I hope that, if there is any effort to move 
legislation on this important issue, that we have the opportunity to 
hold another hearing first and have the most complete record we can 
assemble. The longstanding, bipartisan commitment to the ADA is too 
important to do anything else.
    With that, I yield back the balance of my time.
                               __________

    Mr. Franks. I certainly thank the gentleman. Just for the 
record, the rule that we are discussing here today becomes 
effective May 21 in part because of the circumvention of the 
regular process. So the time was of essence. If we were going 
to have any input in this at all, we had to hold a hearing 
earlier. And the DOJ was invited, but because of this time 
frame it was too late for them to come. We have invited them, 
and we look forward to their written comments just for the 
record. Without objection, other Members' opening statements 
will be made part of the record.
    And our first witness, Hemant Patel, has owned and operated 
an independent hotel and franchise hotel outside Miami since 
1989. Long active in his community, he serves as chairman of 
the Asian American Hotel Owners Association. Mr. Patel.
    Our second witness, Christa Bucks Camacho, has worked for 
the Social Security Administration in Maryland since 1999. 
Currently, she is the director of the Center for Records 
Management. Ms. Camacho has a significant disability which 
requires her to use a wheelchair, and she has been swimming 
throughout her life. Previously, she was a volunteer in the 
Peace Corps in Paraguay.
    Our third witness, Ann Cody, is currently the director of 
policy and global outreach for BlazeSports America, and a 
member of the International Paralympic Committee's governing 
board. She is a recipient of the Congressional Award from the 
National Consortium for Physical Education and Recreation for 
Individuals With Disabilities. That is a nice short name. She 
represented the United States in three paralympics. And 
welcome, Ms. Cody.
    Our final witness, Minh Vu, is a partner with the law firm 
Seyfarth Shaw, where her practice focuses on labor and 
employment law. Previously, Ms. Vu served as counselor to the 
Assistant Attorney General for Civil Rights in the Department 
of Justice, where she represented the DOJ on the U.S. Access 
Board. She is testifying today as counsel for the American 
Hotel and Lodging Association.
    And I would just thank all of the witnesses for appearing 
before us today. And each of the witnesses' written statements, 
your full statements, will be entered into the record in its 
entirety. So I would ask each of you as witnesses to summarize 
his or her testimony in 5 minutes or less. To help you stay 
within that time, there is a timing light on your table. When 
the light switches from green to yellow, you will have 1 minute 
to conclude your testimony. When the light turns red, it 
signals that the witness' 5 minutes have expired. And I would 
also, because it always happens, admonish the witnesses to turn 
on your microphone before you talk. So Mr. Patel, you are 
recognized for 5 minutes, sir.

            TESTIMONY OF HEMANT D. PATEL, CHAIRMAN, 
            ASIAN AMERICAN HOTEL OWNERS ASSOCIATION

    Mr. Patel. Thank you. Honorable Judiciary Committee 
Chairman--Subcommittee Chairman Mr. Franks, Ranking Member Mr. 
Nadler, and the Members of the Committee. Thank you for the 
opportunity to discuss the need for safe access to public pools 
for all Americans. My name is Hemant Patel. I am the chairman 
of Asian American Hotel Owners Association, also known as 
AAHOA. Our nearly 11,000 members own in excess of 20,000 hotels 
in the United States, which is more than 40 percent of all 
hotels in this country. Many of our members own independent 
hotels, or limited service brands, with less than 100 rooms.
    The majority of our members have small outdoor swimming 
pools. These pools are largely unattended. They are principally 
used by our guests with children. AAHOA members are dedicated 
to providing excellent service to the traveling public, 
including the disabled community. We care deeply about our 
guests. We do all we with can to provide an enjoyable stay. We 
support the Americans with Disabilities Act. We spend a 
substantial amount of time and resources to remove barriers and 
provide accessibility to our hotels. We have always been good 
actors in complying with the Federal law, and we will continue 
to lead the way. However, we have serious concerns about the 
manner in which recent pool lift requirements from the 
Department of Justice will impact a struggling sector of our 
economy which has taken a beating in the last 4 years. These 
concerns include whether actual safety and feasibility studies 
were considered, and whether a cost-benefit analysis would 
support the implementation of permanent pool lift requirements. 
The hotel guests who use our pools are typically families with 
children, and most of the pools are unattended by a lifeguard.
    Because of this, our first major concern is this permanent 
pool lift would become a safety hazard. It is highly likely 
that a pool lift would be used by children for playing or 
diving into the shallow end of the pools. With no one to 
monitor these activities, pool lifts could present a serious 
safety concern and issue for our children. The unattended pool 
lifts could also be a target of vandalism. If a guest with a 
disability subsequently uses a pool lift that has been broken 
or damaged because of acts of vandalism, this could pose a 
safety concern. The ability to offer disabled guests a portable 
pool lift instead of a permanent one would answer the serious 
concern.
    The second major concern is the costs of purchasing and 
installing permanent pool lifts. In speaking with hotel owners 
and pool lift manufacturers in recent weeks, the costs of pool 
lifts can range from $2,400 to $9,700, depending on the 
manufacturer, model, and type of lift ordered. The cost of 
installation can range from $500 to $3,000 in the case of such 
a State like California. If a hotel owner with a small pool and 
a hot tub in California needs to install two permanent lifts, 
the costs of purchasing and installing two lifts could range 
from $11,000 to more than $25,000.
    The Department of Justice will not allow owners to include 
the maintenance costs of the pool lifts when determining if it 
is readily achievable to install them. But to disallow the high 
cost of installation poses serious concerns. The costs of a 
pool lift alone is significant, but to add the additional costs 
of permitting, electrical bonding, and other installation 
requirements raises the bar even higher. It is significant to 
note that for those hotels that have had pool lifts in place 
for years, we have reported guests with disabilities have not 
been using the lifts. One of our board members reported that 12 
years ago he constructed a pool at the city of Austin, Texas.
    [Disturbance in the hearing room.]
    Mr. Franks. Ladies and gentlemen, speech is a civil right, 
too. Speech is a civil right, too. Speech is a civil right, 
too. Ladies and gentlemen. Ladies and gentlemen. Free speech 
used to be a civil right, too, ladies and gentlemen. The 
hearing is about making sure that all voices of Americans with 
an interest in this rule are heard. And I would appreciate the 
respect and order for the people that are talking here. This 
doesn't reflect well on anyone. This doesn't reflect well on 
anyone. All right, Mr. Patel, if you would proceed, sir. If you 
would proceed, Mr. Patel.
    Mr. Patel. Thank you, sir. It is significant to note that 
for hotels that have had pool lifts in place for years, we have 
reports guests with disabilities have not been using the lifts. 
One of our board members reported that 12 years ago, he 
constructed a pool at his hotel in the city of Austin, Texas. 
At that time----
    [Disturbance in the hearing room.]
    Mr. Franks. Ladies and gentlemen. Ladies and gentlemen. 
Access to the process is a civil right, too. Access to the 
process is a civil right, too. You were given access to this 
hearing. Ladies and gentlemen, I am going to have to call upon 
security here. If you don't have respect for the civil rights 
of access to government, then we will have to clear it. I know 
that is what you want.
    [Disturbance in hearing room.] 
    Mr. Franks. If security would close the door. Let me state 
for the record that the people who just left the room left of 
their own accord, and were not forced to leave by anyone. The 
reason that the Chair maintained restraint in a situation like 
this which you would normally not do, is because he is very 
aware that there are certain people who have exploited these 
individuals in a very despicable way that does not serve their 
cause or serve the cause of freedom in any way for anyone.
    And for those people I have great disdain. But with that, I 
would just say that the people being exploited were doing what 
they thought would bring attention to their issue, and I 
understand that. And that is why we did not clear the room by 
using security. And if security would please close the door, I 
would appreciate it.
    Mr. Patel, we are going to go ahead and continue here the 
best that we can. Again, part of this process is about process. 
It is about giving everyone a chance to be heard. And 
unfortunately, that has been breached today in a fairly 
significant way. And I apologize to the witnesses.
    Mr. Patel. Sure. It is significant to note that for hotels 
that have had pool lifts in place for many years, there are 
reports that guests with disabilities have not been using the 
lifts. One of our board members reported that 12 years ago he 
constructed a pool at his hotel in the city of Austin, Texas. 
At that time, Austin had a requirement that all hotels must 
have a portable lift for their guests with disabilities. During 
the 12 years that he has maintained a portable pool lift at the 
hotel, he has never had a guest request to use the pool lift. 
He is also a board member of Austin Hotel and Lodging 
Association.
    Based on his information and beliefs, none of the hotels in 
Austin has ever had a guest use their pool lift. Further, we 
have testimony from a member in the Washington, D.C. area. He 
had a pool lift at six hotels. In the past 9 years, no one has 
ever used them. This is a just an example of the evidence and 
statements we have collected. Hotels with fewer than 100 rooms 
are most negatively impacted by the pool lift mandate. The high 
cost of purchase and installation, along with the nonuse by 
guests makes it economically unrealistic for those small 
business owners. The end result will be many simply close their 
pools, which is not a benefit to anyone.
    With this serious concern, we strongly support the Pool 
SAFE Act of 2012. The Pool SAFE Act strikes the appropriate 
balance between providing individuals with disabilities access 
to hotel pools and spas while taking into important factors 
such as child safety, feasibility, and costs.
    We thank this Committee for the opportunity to testify in 
support of the important Pool SAFE Act. I welcome your 
questions. Thank you.
    [The prepared statement of Mr. Patel follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Franks. Ms. Camacho, before I recognize you, the Chair 
notes the irony that perhaps one of the persons on the panel 
here with a great credential is not being allowed to be freely 
heard. And there is a great irony there that I think is 
unfortunate. But if you will proceed the best you can.
    If you will turn on your microphone, please.

 TESTIMONY OF CHRISTA BUCKS CAMACHO, SENIOR EXECUTIVE SERVICE 
 CANDIDATE DEVELOPMENT PROGRAM, SOCIAL SECURITY ADMINISTRATION

    Ms. Camacho. Good afternoon, Chairman Franks, Vice Chairman 
Pence, and Subcommittee Members. Thank you very much for 
inviting me. My name is Christa Bucks Camacho, and I am a 
person with a significant disability. And I have been swimming 
for all of my life. Today, my goals are to illustrate, by 
sharing my personal experiences, one, how important swimming is 
to the quality of my life, and two, how the ability to share 
portable lifts can limit or deny access to a pool.
    My parents started taking me to the swimming pool when I 
was 6 months old. Later, as my ability to walk progressed 
slowly, swimming became even more important. That exercise 
eventually did help me to walk for a period of time. During 
middle school, I spent roughly a year in a full body brace 
following surgery. When my doctor said I was allowed to get in 
the pool as long as I kept my brace on, I was able to resume 
socializing with my peers and get the necessary exercise that I 
would need when my brace would eventually come off.
    I did regain the muscle strength I had lost following the 
surgery. And I say thank you to my mom, who made me this great 
bathing suit that fit over my body jacket. It had this colorful 
jacket that I wore over the top of it. Swimming enabled me to 
begin doing things out of the water that I had been unable to 
do before. I mean, I could go to the bathroom by myself, I 
could independently get in and out of a car, I could get into 
and out of bed on my own.
    Swimming helped me to become independent, and it has helped 
me stay independent. In recent years, when I broke my legs, I 
could not swim. However, when the casts did eventually come 
off, the doctor said I could get right back in the pool. And 
you could find me every day for a month in the pool. And I 
gained back my independence. The pool provided me relief from 
pain, and gave me the ability to do things again. I also am a 
mother of two children. During pregnancy, I exercised in the 
pool all the time. It was great for my health and the health of 
my child. I swam to provide exercise and also to relieve my 
stress. I was a working mom.
    Swimming continues to be a very important part of my life. 
I started taking my children to the pool at 6 months of age. I 
would ride the pool lift. And when I got in the water, another 
parent would pass me my child. We would have a great time 
splashing, singing songs, learning to put our face in the 
water. We have become a swimming family. My son Antonio, he 
swims on the swim team, and we go all the time. When he is in 
one side of the pool, I am in the other getting my exercise.
    I share these stories to illustrate to you a point. While 
swimming can be good for anyone, it is extremely important to 
the physical, mental, and emotional health of many millions of 
people with significant disabilities. For us, access to a 
swimming pool promotes personal health, social interaction, and 
family fun, not to mention stress relief. For many of us, 
access to a swimming pool means more than having a recreational 
alternative. It is a quality of life issue.
    For me, however, access to a swimming pool has not always 
been easy, and at some facilities, it has been denied. When I 
visit a new pool, which usually occurs when I travel, I first 
look for the lift. My experience with fixed lifts has been 
positive. They are there, they are easy to spot, I pull up my 
wheelchair, I transfer, the lifeguard typically knows how to 
turn it on, and I get in the pool. I want to mention something 
to you about safety concerns that I have heard expressed. In my 
opinion, a fixed lift is no more hazardous than any other pool 
equipment. I say this because I am a parent of young children, 
and I spent a considerable amount of time in the pool with 
other parents and their children, and as someone who has taught 
swimming to other children. My experiences with portable lifts, 
on the other hand, have not always been good. When near the 
pool, portable lifts sometimes are in locations where I can't 
get my wheelchair close enough, so I can't transfer, I can't 
get in the water independently.
    When I ask for a portable lift, it is not always made 
available. I usually have to show a lifeguard, when they find 
the lift, how to hook up the hose, how to attach the battery. 
And for a person who does not know how to do this, the lift 
would be effectively unavailable. Every time that a portable 
lift has been made available upon request, there has been a 
time that one has not been made available. I have been told 
that although a portable lift existed, it had been loaned out, 
or was put in a closet, could not use it because the battery 
was not charged, which would take another set of hours.
    When no lift was available, lifeguards refused to help me 
get into the pool or out of the pool, so the pool was not 
available to me. My personal experiences are consistent with 
the years of post-ADA access issues that helped inform the 
Department of Justice rules for ensuring access to swimming 
pools. By negating these rules or the ability to enforce them, 
H.R. 4256 would, one, give permission to those who deny such 
access to continue doing so; and two, invite those who have 
been more careful about making these pools accessible to people 
like myself to not do so anymore. Thank you for considering my 
testimony, and I am available to answer your questions.
    Mr. Franks. Thank you, Ms. Camacho.
    [The prepared statement of Ms. Camacho follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Franks. Ms. Cody, you are recognized for 5 minutes.

          TESTIMONY OF ANN CODY, DIRECTOR, POLICY AND 
              GLOBAL OUTREACH, BLAZESPORTS AMERICA

    Ms. Cody. Good afternoon, Chairman Franks, Ranking Member 
Nadler, and distinguished Members of the House Subcommittee on 
the Constitution. My name is Ann Cody, and I am the director of 
policy and global outreach for BlazeSports America. BlazeSports 
assists communities across the country with providing access to 
sports and recreation for people with disabilities. I also 
serve on the governing board of the International Paralympic 
Committee, and as vice chair of the U.S. Olympic Committee's 
Paralympic Advisory Committee. I hold a master's degree in 
therapeutic recreation, and have worked in the recreation and 
sports industry for more than 20 years.
    As a three-time Paralympian in the sport of track and 
field, I spent 10 years training and traveling to competitions 
all over the world. In my professional life, I travel 
extensively. And as a wheelchair user, I have experienced 
firsthand the inability to use swimming pools and hot tubs when 
I am on the road. Ironically, much of my travel is for the 
purpose of educating local recreation and sport professionals 
about how to include people with disabilities in their 
programs. When I am traveling, I can't just slap on a pair of 
running shoes and exercise on the treadmill. While many 
facilities have made the necessary adaptations, I find that 
pool lifts in hotels are the exception and not the rule. This 
is disappointing nearly 22 years after passage of the ADA. And 
frankly, I am stunned that we are having this conversation in 
2012. I have used a wheelchair for 32 years, and swimming is 
one of the best forms of exercise for me.
    In my family, weekends and vacations revolve around water 
activities. Before I became disabled, I swam every day in the 
summer, and so did my siblings, friends, classmates, and peers. 
The swimming pool in our community was the hub of social 
interaction and physical activity. Children and adults with 
disabilities have a fundamental right to engage in the very 
activities that shape our relationships, our bodies, our 
health, and our communities.
    The ADA is a civil rights statute that aims to maximize the 
independence of people with disabilities and to promote full 
integration into all aspects of society. The ability to access 
swimming pools and other facilities is critical to achieving 
greater independence and community integration. Just as for 
anyone, and as Christa mentioned, being physically active is 
critically important for people with disabilities. We are among 
the most sedentary, most obese minority groups in the country. 
Physical activity significantly enhances our physical, mental, 
social, and emotional well-being.
    Swimming is a highly desirable activity for many people 
with mobility impairments, including our returning veterans, 
who benefit from swimming with their families for 
rehabilitation, and for fitness. ADA's accessibility 
requirements for barrier removal in existing facilities are 
very reasonable. The rules are carefully crafted to take the 
needs of covered entities like hotels into account. The 
regulations direct public accommodations to use a fixed or 
permanent lift, or a sloped entry into the pool only, and only 
if either can be done easily, without significant difficulty, 
or expense.
    In my experience, similar to Christa's, the best way to 
ensure access to swimming pools is a fixed, permanent lift. A 
fixed lift is there and ready whenever a person with a 
disability wants to swim. The person doesn't have to find a 
staff person who knows where the lift is, who has the key, who 
knows how to operate it. In my experience, the keys often 
reside with a staff person who has to be paged. If the person 
with the key is in the middle of a job or on a meal break, then 
we are left wondering if we will be able to use the pool at all 
because we don't know when that person is going to show up with 
the key.
    In conclusion, it is excellent that DOJ has finally 
addressed accessibility standards for recreation facilities. It 
has been a long time coming, including swimming pools so that 
people with disabilities have opportunities that have been 
available to the general public all along. Exercise and 
recreation opportunities should not be withheld on the basis of 
a disability. And I would encourage the hotel industry to begin 
marketing and figuring out ways to let people with disabilities 
know that their amenities are inclusive and accessible.
    Recreation facilities such as swimming pools are key 
features of the lodging industry. The ADA pool requirements are 
not unduly burdensome. In an existing hotel, all that is 
required is what is readily achievable. Congress should ensure 
strong civil rights protections and end discrimination against 
people with disabilities. The ADA must be enforced, and the DOJ 
must have the enforcement power to do so. Please do not weaken 
the enforcement we need. That concludes my oral testimony, Mr. 
Chairman.
    Mr. Franks. Thank you, Ms. Cody.
    [The prepared statement of Ms. Cody follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Franks. Ms. Vu, you now have 5 minutes.

      TESTIMONY OF MINH N. VU, PARTNER, SEYFARTH SHAW LLP

    Ms. Vu. Good afternoon, Mr. Chairman and Members of the 
Subcommittee. On behalf of the American Hotel and Lodging 
Association, thank you for the opportunity to testify on the 
new and arbitrary pool lift requirements that the Department of 
Justice has issued in January of this year.
    The DOJ issued these requirements without following the 
requirements of the Administrative Procedures Act, the Small 
Business Regulatory Enforcement Fairness Act, and Executive 
Order 12866. These new requirements affect hundreds of 
thousands of businesses, all State and local governments, and 
all Americans who use the facilities at these establishments. 
Many other business groups have joined the Association in 
objecting to the DOJ's end run around laws that are designed to 
ensure that rules are only issued after a thoughtful process 
that considers factors such as public safety, the cost to 
society, reasonable alternatives, and impact on small 
businesses.
    The AH&LA represents a wide variety of hotel owners and 
operators, many of whom are small businesses. I have served as 
the Association's ADA Title III counsel since 2006.
    I want to begin by reiterating that the lodging industry 
recognizes the importance of providing access to its pools and 
spas to guests with disabilities. The industry is fully 
committed to this effort. After DOJ issued new ADA Title III 
regulations on September 15, 2010, which I will call the 2010 
final rule, most of the Association's members researched their 
pool lift options and planned on buying or had already 
purchased portable pool lifts which complied with all of the 
requirements of the 2010 Standards.
    Now, some here have expressed negative experiences in the 
past with portable pool lifts, and what we must remember is 
that, up until now, there have not been any pool lift 
requirements, nor have there been any particular specifications 
for pool lifts. Therefore, we can anticipate that in the 
future, now that the Department of Justice has actually 
mandated a requirement to have pool lifts, that in fact their 
availability and accessibility will be ensured.
    Now, much to the surprise and dismay of the Association's 
members, the DOJ decided to change the rules of the game on 
January 31, 2012, only 6 weeks before the compliance deadline. 
In a technical assistance document that I will refer to as the 
Pool Lift Requirements Document and in subsequent 
communications with the AH&LA, the DOJ announced the following 
requirements:
    First, instead of portable pool lifts that can be purchased 
and used immediately, businesses must install fixed or built-in 
pool lifts that are attached to the pool deck.
    Second, instead of being brought out upon request, the pool 
lifts must be poolside or spa-side at all times when the 
facilities are open.
    Third, a pool lift cannot serve more than one body of 
water, according to the Department of Justice, even if there is 
a pool and a spa right next to each other in the same facility.
    The DOJ violated the Administrative Procedures Act when it 
issued the substantive new requirements without public notice 
or comment. These requirements--let me emphasize this--were 
never mentioned by the DOJ at any time during the rule-making 
process that led to the 2010 final rule, and it is nowhere 
mentioned in the 2010 final rule that there is a requirement 
for a fixed lift or that it be out there all the time.
    Now, the DOJ's disregard of the rulemaking process in this 
case has very serious consequences, and I will just mention a 
few.
    First, there has been no analysis about the impact of these 
new requirements on small businesses, as required by SBREFA, or 
a cost-benefit analysis, as required by Executive Order 12866.
    Secondly, the DOJ did not consider the difficulty and costs 
associated with installing fixed lifts at existing pools or 
spas and whether they are outweighed by any benefits that only 
a fixed lift can provide.
    Installing a fixed lift requires a contractor, permits, a 
feasibility assessment, partial pool deck demolition, 
electrical bonding, and deck reconstruction even before the 
lift can be put in place. This is a completely different 
process than the purchase of a portable pool lift.
    We have heard some of the benefits and burdens of a fixed 
lift today, but this discussion should have been part of a 
regulatory process that followed the Administrative Procedures 
Act. Our objection is not to pool lifts but rather to the fact 
that the DOJ decided to issue requirements without ever having 
notice and comment on the issue so that we could hear all of 
the concerns that would be expressed.
    Third, the DOJ did not consider the increased risk of 
injury to children who will play on and jump off of the pool 
lift into the shallow end of the pool, which is where the pool 
lift has to be installed. The DOJ dismisses these concerns 
because it says there is no evidence of injury. But the access 
board study in 1996 does show evidence of injury in connection 
with use of the lift.
    In addition, we have to remember that we have never had 
this condition before. Never have there been pool lifts that 
are permanent and left out at an unattended swimming pool for 
children to play with. This is not a condition we have ever 
had. So, therefore, there wouldn't necessarily be evidence of 
children being injured on these lifts. Nonetheless, we should 
not wait. The DOJ should not wait until a child is 
catastrophically injured before saying, gee, we should study 
this issue. This should be done before the requirements are 
issued.
    In fact, we tried to convince DOJ of this fact, and they 
dismissed the concerns. So we actually went to a national 
aquatic safety expert who has investigated over 600 pool 
accidents, and this individual stated that the conditions posed 
by the pool lift being unattended and fixed pose serious safety 
concerns that must be studied.
    There are a host of other concerns, including the liability 
that businesses will face if in fact children and other people 
injure themselves using unattended lifts. There are issues 
concerns individuals with disabilities being injured while 
using the lift, particularly at an unfamiliar lift that they 
have not used before. And, of course, there is also the real 
possibility that, because there is increased liability, that 
businesses will close their pools and spas instead of 
essentially buying the fixed lift.
    Let me just say one thing, also. The readily achievable 
defense--or not readily achievable defense is not a silver 
bullet at all. Because, essentially, once there is a 
requirement for a fixed lift, a business will have to decide--
if it decides it can't afford to do the fixed lift, it is going 
to be subject to a lawsuit, and it is going to have to defend 
that lawsuit. And defending that lawsuit in the best-case 
scenario, which is a victory, will cost more than actually 
putting in the lift in the first place. In the worst-case 
scenario, the business loses and pays its fees, the other 
side's fees, and the costs of the lift. So it is really not a 
silver bullet. It is a no-win situation.
    I know my time is up, and we encourage this Committee and 
Congress to act to essentially nullify the DOJ's illegal 
actions. The Pool SAFE Act accomplishes this objective, and we 
support it.
    Thank you.
    [The prepared statement of Ms. Vu follows:]*
---------------------------------------------------------------------------
    *See Appendix for the attachments submitted with this statement.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
---------------------------------------------------------------------------
                               __________

    Mr. Franks. Thank you, Ms. Vu.
    I will now recognize myself for 5 minutes to begin 
questioning. Mr. Patel, I will begin with you.
    In Arizona some years ago we had environmentalists pressing 
very hard to make sure that we didn't clear small trees away 
from close towns because of the fear of impacting the 
environment. But what it did, of course, was to create a 
tinderbox close, and we on several occasions lost whole 
forests.
    And I am asking this question sincerely. If as a small 
business owner like yourself you find that the cost of 
installing and maintaining a fixed pool lift for a spa and pool 
is too great or the liability, the risk that potentially comes 
with it, is too great, or the fear, as Ms. Vu mentioned, of 
having to defend the lawsuits of not doing it just in the right 
way, is it possible that some hotel owners might conclude, all 
right, we just won't have a pool at all and that that could 
affect the accessibility not only of the disabled but for all 
individuals as well?
    Mr. Patel. Thank you, Mr. Chairman.
    Yes. You know, going back many years, back in the early 
'80's some of the hotel owners just gave up with the pool 
because the insurance costs of just insuring the hotel with 
pool and without pool became a huge difference in insurance 
costs of hotel owners. And in this particular case also some of 
the--you know, some of the older hotels, let's say, for 
example, from Florida, where I come from, usually just the 
small mom and pop hotels had pools to fulfill the needs of 
guests who like to be in sunny Florida with pools. But those 
old hotels have no room to put a pool and accessibility the 
factor. Now, going through the huge cost of putting a pool, I 
am pretty sure some of the hotel owners will end up giving away 
the pool, if that answers your question.
    Mr. Franks. It does. We don't know how many, but, yes, it 
will.
    Mr. Patel. It will. I am pretty sure it will.
    And, as you know, in this last cycle of the economy, the 
hotel industry has been hit so hard that so many hotels have 
been foreclosed. So you add another $15,000, $20,000 worth of 
cost to put a pool lift, guess where the hotel owner is going 
to end up. And you know how the market has been in the hotel 
industry.
    Mr. Franks. Yes. Well, the unfortunate issue here is that 
somehow the DOJ I think very deliberately have tried to cast 
this as a struggle between business owners and the disabled, 
when really it is a struggle against the fire, ready, aim 
approach of the DOJ.
    Ms. Vu, I would turn to you now.
    Some argue that because only the Justice Department rather 
than private parties can bring a claim for money damages under 
the ADA then small businesses won't have to worry about 
private-sector trial lawyers suing them based on the DOJ's new 
requirements. Is that something that you agree with? Or help us 
understand that.
    Ms. Vu. I absolutely disagree with that statement. Frankly, 
the greatest level of litigation activity is brought by private 
plaintiffs, not necessarily by DOJ. And, as I had stated, once 
you have a requirement for a fixed lift, even if a hotel owner 
decides legitimately that perhaps it is not readily achievable 
for that business to install a fixed lift and it doesn't do so, 
it is not immune from lawsuits at all. As soon as a private 
plaintiff sees that there is no fixed lift there, there will be 
a lawsuit filed. And they don't have to give notice or do 
anything. They just file the lawsuit. And that will 
instantaneously result in the business having to hire an 
attorney to defend the lawsuit.
    Now, the readily achievable--or, rather, the not readily 
achievable defense is not a silver bullet, as I said, because 
it is a highly fact-specific analysis that requires the 
examination of at least five different factors. So essentially 
it is the kind of lawsuit that cannot be dismissed immediately. 
You have to go to the end basically for an on-the-merits 
determination. That means that the fees will be high on both 
sides. And the hotel owner is essentially gambling that, in the 
best-case scenario, his position will be justified and so he 
will only have paid his own attorney's fees, which could be 
maybe $50,000, $100,000. And if he didn't pick correctly and he 
got bad advice the first go-around about whether it is readily 
achievable or not, then he is going to pay his own fees and the 
other side's fees, and, of course, there will be injunctive 
relief that will be ordered and a fixed lift would have to be 
installed.
    So that is a very expensive proposition. The upshot is 
either you put in the lift or you close your pool.
    Mr. Franks. My last question is really for all of you, and 
I would like to thank you all for taking so much time here to 
come and talk to us and to shed light on the subject and the 
topic. But if the DOJ were to open a full rulemaking process, 
as they certainly should have for the new requirements, would 
each of you plan to participate so that any new rule would be 
informed by a full, transparent, and fair process and a fair 
record as possible?
    If it is all right, we will begin with you, Ms. Camacho, 
and you, Ms. Cody. Just quickly give me your answer. Would you 
be available to testify for a full, transparent process?
    Ms. Camacho. Mr. Chairman, I would be happy to, and I would 
welcome for people to come along with me on a swimming----
    Mr. Franks. I am sorry you didn't get that opportunity the 
first time.
    Ms. Camacho. And I think that we could answer a lot of 
questions with life experience.
    Mr. Franks. Ms. Cody?
    Ms. Cody. As I said, I am really concerned about the fact 
that we are here in 2012 having this conversation. I am happy 
to lend my expertise as an advisor, but I am not sure that a 
second hearing on this issue is warranted.
    Mr. Franks. I understand.
    Ms. Vu?
    Ms. Vu. Yes. The Association would absolutely participate 
in such a proceeding. It is what we are really asking for.
    Mr. Patel. Yes, Mr. Chairman.
    Mr. Franks. With that, I am going to just suggest that it 
is too bad that didn't happen here. Because it certainly didn't 
serve anyone well for the DOJ to proceed in sort of the 
lawless, again, fire, ready, aim approach that they took.
    Mr. Nadler, I recognize you for 5 minutes, sir.
    Forgive me, Mr. Scott first.
    Mr. Scott. Thank you, and I thank the gentleman for 
deferring.
    Ms. Camacho and Ms. Cody, what is wrong with the precedent 
that would be set if the normal regulatory process is bypassed? 
If we bypass the normal regulatory process with the 
legislation, what is wrong with that?
    Ms. Cody. Well, it presents an issue for us in terms of 
being able to enforce the Americans with Disabilities Act. If 
we look at the regulations and allow the Department of Justice, 
who has made their regulations clear and who has followed a 
very long process of getting public comment and input from 
everyone, I don't understand why we would need to go back and 
force the Department to again open up these regulations. We 
have been waiting a long time. There has been a lot of time and 
energy invested in developing these regulations, going back to 
the access board and the Bush administration and then when the 
Obama administration came in.
    Mr. Scott. Would every subsequent regulation be politicized 
if you went into legislation every time they came up with an 
enforcement?
    Ms. Cody. Yes. I think the answer is yes.
    Mr. Scott. Mr. Patel, what portion of an expense to comply 
with the ADA would be offset by tax credits?
    Mr. Patel. I will say I don't see any which will be offset 
by tax credits because of the fact, if there are any tax 
credits available from the Department of Justice to enforce 
this law, we haven't been informed about it.
    Mr. Scott. Ms. Cody, are there tax credits available for 
compliance with ADA?
    Ms. Cody. Yes, there are.
    Mr. Scott. And what are they?
    Ms. Cody. Pardon?
    Mr. Scott. What are they?
    Ms. Cody. What are they? The tax credits are available. I 
don't know the specific numbers and ratios, but they are 
available to business owners.
    Mr. Scott. The tax credit would pay 50 percent of eligible 
expenses up to a maximum of $10,000 after the first 250 for 
those who qualify. This would then cover half the cost of the 
lift. The rest would be a deductible. Is that right, Ms. Vu?
    Ms. Vu. Congressman, there is a tax credit. There is also a 
tax deduction. It is limited.
    But that is not really the only issue here. It is not just 
about cost. The issue is also one about safety, child safety, 
the increased liability that would result from injuries that 
could happen to both individuals with disabilities and 
children.
    Mr. Scott. You have that with all pools. Is there any 
increase--Ms. Cody and Ms. Camacho, is there any danger with 
increased danger?
    Ms. Cody. Not in my experience. I know how to operate pool 
lifts. They are similar to other lifts. They are designed 
similarly to every accessibility mechanism that I use. And in 
my experience at my apartment complex, children who are there 
playing in the pool supervised by their parents, because they 
wouldn't be there unsupervised, are curious about what the pool 
lift is, but once they understand what it is--I mean, they 
understand that it is not something to play with--just like an 
elevator or an escalator. And, besides, aren't pools inherently 
dangerous for children to begin with?
    Ms. Camacho. May I offer some background based on my 
experience?
    I mentioned to you that we swam bright and early, my son 
and I, because he is on the swim team, and we have traveled to 
various pools throughout Maryland for swim meets this year. And 
when there are two pools at the facility, the swim meet will be 
going on in one and I will be swimming in the other one, and 
they have often open membership time in the other pools. And in 
my experience, when the lift is at the pool, there is no 
equipment being moved around when there are lots of children 
all lining up to run their heats. They are constantly lining up 
and walking around the pool decks getting ready to swim a 100 
meter dash.
    So in my experience, when you have to roll out a pool lift 
when you have many people around you, you are bringing in a 
hazard. When a lift is there, it is part of the facility. Kids 
see it as if they would see a diving board or they would see 
other pool equipment.
    In my experience with my children and being around their 
friends, we have not had issues with the lift. There will be 
questions of curiosity, maybe touching it to turn off the water 
valve. But it has been simply to explain to the children, well, 
that water valve is what makes the lift operate, and then I 
have had no further issues.
    Mr. Scott. Thank you, Mr. Chairman, and I thank the 
gentleman from New York for deferring.
    Mr. Franks. I thank the gentleman.
    I recognize the Ranking Member, Mr. Nadler, for 5 minutes.
    Mr. Nadler. Thank you.
    Ms. Vu, you testified that DOJ, the Department of Justice, 
did not know about and had never considered the work involved 
with the installation of a fixed lift before issuing the new 
requirements. You also testified that the January, 2012, 
guidance was the first time that your Association's members 
knew that fixed lifts should be installed, if doing so is 
readily achievable.
    But the American Hotel and Lodging Association submitted 
comments to the DOJ in 2005, 7 years earlier, with cost 
estimates that included the cost of building permits for 
installing lifts. A building permit isn't needed for a portable 
lift but only for a permanent lift. Doesn't this cast doubt on 
whether the Association can truly claim surprise since your 
cost estimates were based on a fixed lift as the recommended 
standard back in 2005?
    Ms. Vu. You asked several different questions in that----
    Mr. Nadler. No, I asked one question. Don't the facts that 
I outlined cast doubt on the statement that the Association was 
surprised, since you had cost estimates for this back in 2005?
    Ms. Vu. Well, let me say this. If you look at both the 
proposed rule that eventually became the final rule and you 
also look at the entire regulatory record from the access 
board, every time--the only times that the term ``pool lift'' 
was ever defined, that was on three separate occasions in the 
access board rulemaking process. The definition of pool lift 
included portable lifts, fixed lifts, and also removable lifts.
    Mr. Nadler. Excuse me. Do you need a building permit for a 
portable lift?
    Ms. Vu. That is--absolutely not.
    Mr. Nadler. Therefore, you were talking about a permanent 
lift in your testimony or in your submissions back in 2005.
    Ms. Vu. With all due respect, let me say this.
    The way the final rule came out, there was no specific 
requirement for a fixed lift. It was basically the business 
owner that could choose whether it was going to go with a fixed 
lift, a portable lift, or some other type of lift. The 2010 
Standards contain nine separate, very specific requirements 
about what a pool lift needs to do, and fixed being attached to 
the pool deck is not one of them.
    Mr. Nadler. Okay. But a fixed lift was one of the 
alternatives, and you gave cost estimates--or your Association 
gave cost estimates back in 2005, which means you weren't 
surprised by this in 2012.
    Also, in 2005, AH&LA raised safety concerns describing 
lifts as an attractive nuisance to children, as you did a few 
minutes ago. Again, if this is a concern that you claim is 
limited to fixed or permanent lifts, doesn't this also call 
into question your current claim of surprise over the fixed 
lift requirement--or recommendation, I should say?
    Ms. Vu. Actually, not at all. In fact, obviously, those 
concerns were expressed, and in the final rule as well as the 
entire rulemaking there was never a requirement for a fixed 
lift. That would seem that DOJ actually heard the safety 
concerns at that point.
    Mr. Nadler. But there is still no requirement for a fixed 
lift.
    Ms. Vu. Well, there is now after DOJ has announced it in 
the January 31st document.
    Mr. Nadler. Only if it is readily achievable.
    Ms. Vu. Yes, but that means presumptively it is required, 
unless the business can demonstrate that it is not readily 
achievable, using a test that is virtually impossible to 
administer. And that subjects the business to a lawsuit it must 
defend to the bitter end----
    Mr. Nadler. But why is DOJ now--if you had concerns about 
safety problems with this back in 2005, why did you wait until 
2012 to submit these concerns?
    Ms. Vu. The Department of Justice never proposed fixed 
lifts as the only option. There was always the option----
    Mr. Nadler. That is still not the only option. Only if it 
is readily achievable.
    Ms. Vu. Well, the way the Department has--basically, 
readily achievable is only an option--is a defense. The 
presumption is you must follow the 2010 Standards unless you 
can demonstrate that it is not readily achievable. If the 
Department of Justice would like to issue a guidance today that 
says that you don't have to put in a portable lift--I mean a 
fixed lift--and that it is not just only in the instances where 
it is readily achievable and you don't have to, we would be 
delighted by that.
    Mr. Nadler. Since there seems to be a dispute between what 
we are told was required by the Justice Department and what you 
say, don't you think we should hear from the Justice Department 
on this?
    Ms. Vu. You know, we really were hoping that the Department 
of Justice would actually be here today.
    Mr. Nadler. So your answer is yes.
    Ms. Vu. Absolutely. But, as I understand it, they were 
invited.
    Mr. Franks. They were invited.
    Mr. Nadler. They were invited a week ago, and they have 
told this Committee on previous occasions that they need at 
least 2 weeks to prepare, and they then asked us to postpone 
this by 1 week so they could be here, and they were told no.
    Mr. Patel and Ms. Vu--Mr. Patel, Ms. Camacho testified that 
her experience with portable lifts has often been negative and 
that she had been told by hotels that they have a lift but it 
has been loaned to another hotel or it is broken or otherwise 
unavailable. What is your response to her in that situation, 
better luck next time?
    Mr. Patel. I will disagree with her. As you know----
    Mr. Nadler. Wait a minute. You will disagree with her? That 
never happened?
    Mr. Patel. About the pool lift.
    Mr. Nadler. Yes, that she didn't have that experience? That 
portable pool lifts, she wasn't told they are unavailable now, 
they are loaned, they are not here?
    Mr. Patel. If I may understand your question correctly, 
sir--sorry.
    Mr. Nadler. My question is, we are told that one problem 
with the portable pool lift is that it is often not there. It 
is unavailable. It has been lent to somebody else. Excuses are 
made. And if you don't have a permanent pool lift but only a 
portable pool lift, it is often not available when it is 
needed.
    Mr. Patel. I think I will disagree with her that, you know, 
we have made many corrections through the years, so many of our 
members own old properties, and we respect the community and we 
have made so many changes, which is not just because of the 
cost of retrofitting our rooms to the standards. We have spent 
money. So I don't think we will ignore that fact.
    But as every hotel--if you are standing in a queue for a 
hotel to renting a room and if there are five people in front 
of you, obviously, you know, a 10-minute wait is much less a 
complicated issue than to have a pool lift, which can create a 
huge liability for a hotel. What would you prefer?
    Mr. Nadler. Well, you have gotten far afield of my 
question.
    Might she and the Justice Department--she having 
experienced the unavailability of portable lifts when needed on 
several occasions, might she and the Justice Department not 
also have legitimate concerns that while a fixed or permanent 
lift is guaranteed to be placed where it is safe in terms of 
water depth, location, et cetera, a particular staff person 
called upon to set up a portable lift might not know in a given 
case how to ensure safe setup, and shouldn't this also be a 
safety and liability concern for hotel owners?
    It is easier, in other words, when you install a permanent 
lift to make sure it is done right than to be sure that every 
employee puts the portable lift in right every time.
    Mr. Patel. I haven't experienced that, you know, as I have 
some of my members who have lifts for many years. Especially in 
the case of Austin, they have installed the lift, and in 11 
years nobody has used it.
    I will still say that a portable lift is a much better 
option and, you know, our employees will equally do the same to 
accommodate the needs if the portable lift is asked. I haven't 
experienced that.
    Mr. Nadler. My last question is, since Mr. Patel just 
testified that many of his members installed a permanent lift 
and nobody ever used it, in other words, it is not necessary, 
when Ms. Camacho----
    Mr. Patel. That is not what I said.
    Mr. Nadler. That is not what you said?
    Mr. Patel. It is a portable lift, not permanent. A portable 
lift in Austin, Texas. We have so many hotel owners----
    Mr. Nadler. You have put in lifts, and nobody ever used 
them?
    Mr. Patel. Yes.
    Mr. Nadler. Okay.
    Now, Ms. Camacho and Ms. Cody, when you travel on your own 
or with your family, what steps do you take to ensure that the 
places you stay will be accessible and how highly do you rank 
having access to a pool? Have you chosen a particular hotel 
over another hotel because of accessibility and have there been 
times when you simply couldn't find a hotel in the area that 
you were traveling to that was accessible that had a portable 
or permanent lift?
    Ms. Camacho. Yes. Am I on?
    Accessibility is of utmost importance to me, and when we 
make a reservation, we ask about the amenities. We ask about 
the accessibility in the hotel room, about the shower, and the 
bathroom facilities. We also ask about the pool and what is 
available at the pool. And I have to say that sometimes when 
you travel, you know, it is not always what people say on their 
Web site or what they say on the telephone.
    Mr. Nadler. Thank you.
    Mr. Franks. Thank you, Mr. Nadler.
    Just for the record, we did in fact, as I say, invite the 
DOJ. Given the way that they approached this, regardless of the 
outcome, not even speaking to that, the process here was so 
mishandled and completely disregarded the law, if I had been 
them perhaps I would have been ashamed to show up here as well. 
But the notion that they had to have 2 weeks to be here, they 
could have been here if they had wanted to be here. I certainly 
want to----
    Mr. Nadler. Mr. Chairman, I must say I object to the tenor 
of your remarks just now. It is standard practice to give 
executive agencies 2 weeks. They have told this Committee on 
many occasions they require 2 weeks. They weren't ashamed to 
show up here. They have done nothing improper. And they did ask 
for one additional week. If this hearing had been held next 
week, they would have been here. Obviously, the leadership of 
this Committee didn't care whether they were here or not.
    Mr. Franks. If they weren't ashamed to be here, they should 
have been, and your objection is noted.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witnesses which will be forwarded; and I ask the witnesses to 
respond as promptly as they can so their answers may be made 
part of the record.
    Without objection, all Members will have 5 legislative days 
with which to submit any additional materials for inclusion in 
the record.
    Mr. Nadler. Mr. Chairman, before you finish--go ahead.
    Mr. Franks. Do you have additional----
    Mr. Nadler. I ask unanimous consent to place in the record 
a letter from the Department of Justice from October, 2010----
    Mr. Franks. Without objection.
    Mr. Nadler [continuing]. Asking that they always have 2 
weeks notice for appearing at these hearings.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Franks. With that, again, I sincerely thank the 
witnesses. The Chair has made a tremendous effort here to try 
to give everyone a chance to speak. In fact, as you note on the 
panel today, there are two people that are essentially in favor 
of the DOJ and two that are not. That is generally not the way 
that we do it.
    So I thank all of you for being here, and may the best 
policy prevail.
    With that, this meeting is adjourned.
    [Whereupon, at 6 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

     Attachments to the Prepared Statement of Minh N. Vu, Partner, 
                           Seyfarth Shaw LLP

                              ATTACHMENT A

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT B

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT C

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT D

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT E

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT F

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT G

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT H

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT I

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

 Material submitted by the Honorable Trent Franks, a Representative in 
 Congress from the State of Arizona, and Chairman, Subcommittee on the 
                              Constitution

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
    Prepared Statement of the National Association of Home Builders

    On behalf of the more than 140,000 members of the National 
Association of Home Builders (NAHB), we appreciate the opportunity to 
provide testimony on the Department of Justice's Guidance on Access to 
Pools and Spas Under the ADA.
    The National Association of Home Builders (``NAHB'') is a 
Washington, D.C.-based trade association whose mission is to enhance 
the climate for housing and the building industry. NAHB helps promote 
policies that will keep housing a national priority. A federation of 
more than 800 state and local associations nationwide, NAHB's 
membership includes over 140,000 members who will construct about 80 
percent of the new homes built each year in the United States.
    Residential construction is a highly regulated industry and home 
builders comply with numerous federal, state and local statutes and 
regulations during the course of operating their businesses. NAHB 
remains actively engaged on many fronts to ensure that its members 
receive up to date information and education on changing regulations 
and laws. As part of its advocacy efforts, NAHB seeks to ensure that 
proposed federal regulations are promulgated in accordance with all 
procedural requirements set forth under the Administrative Procedures 
Act (``APA''). 5 U.S.C. Sec. Sec. 551 et seq.
    NAHB's members take their obligations to comply with the Americans 
with Disabilities Act (``ADA'') seriously, and NAHB strongly supports 
the ADA's goals in removing discriminatory barriers. Accordingly, NAHB 
welcomes the opportunity to speak out on Delaying the Compliance Dates 
for Certain Requirements of the Regulations Implementing Titles II and 
III of the Americans with Disabilities Act dealing with accessible 
pools and spas. NPRM, 77 Fed. Reg. 16196.\1\
---------------------------------------------------------------------------
    \1\ DOJ published the final rule updating its regulations 
implementing the Americans with Disabilities Act (``ADA''). See, e.g., 
Nondiscrimination on the Basis of Disability in State and Local 
Government Services, 75 Fed. Reg. 56163 (Sept. 15, 2010).
---------------------------------------------------------------------------
    NAHB agrees with DOJ that additional time is necessary to ensure 
consistent application of the rules to existing facilities and urges 
DOJ to, at a minimum, extend compliance until the proposed September 
17, 2012 date. Additionally, for the reasons discussed below, NAHB 
calls upon members of Congress to urge DOJ to withdraw Revised ADA 
Requirements: Accessible Pools--Means of Entry and Exit (U.S. Dept's of 
Justice, Jan. 31 2012) (hereinafter ``TA Document'') or, in the 
alternative, undertake a regulatory review of the TA Document pursuant 
to the APA and small business review analysis as required by the Small 
Business Review and Enforcement Act (``SBREFA'').
    DOJ's TA Document substantively changes the requirements of the 
final regulations and the 2010 Standards,\2\ and does so without 
affording the public and regulated community an opportunity to 
participate fully through the rulemaking process. DOJ describes the TA 
Document as a means ``[t]o help educate pool owners and operators 
concerning the requirements imposed by the regulations[.]'' NPRM, 77 
Fed. Reg. at 16197. But, it is much more than an educational tool 
because it changes the regulations by requiring public accommodations 
choosing pool lifts as a means of removing barriers to install fixed 
pool lifts first, unless ``installation of a fixed lift is not readily 
achievable[.]'' See TA Document at 3. A public accommodation `may then 
consider alternatives such as use of a portable pool lift that complies 
with the 2010 Standards.'' Id. (emphasis added). This position 
contravenes the specific language in the 2010 Standards, which does not 
require that public accommodations go through that analysis--i.e., a 
portable pool lift only after determining a permanent fixed pool lift 
is not readily achievable. Moreover, DOJ's newly stated position, 
encapsulated in the TA Document, is not merely the agency's 
interpretation of existing requirements, but is itself an ``agency 
statement of general or particular applicability and future effect'' 
from which consequences will flow--compelling property owners and 
managers subject to the ADA to install fixed lifts at pools and spas--
or face the consequences of noncompliance. 5 U.S.C. Sec. 551(4) (APA 
definition of a ``rule'').
---------------------------------------------------------------------------
    \2\ Included with its revisions to the regulations, DOJ also 
adopted the 2010 ADA Standards for Accessible Design (Nov. 15, 2010) 
(available at www.ada.gov/2010ADAstandards_index.htm).
---------------------------------------------------------------------------
    In letters to hotel pool owners associations, DOJ stated the ``2010 
Standards apply to a built-in or `fixed' pool lift or sloped entry that 
complies with the 2010 Standards[.]'' DOJ, Letter to the Asian American 
Hotel Owners Association 2 (Feb. 24, 2012), available at http://
www.ada.gov/aahoa_letter.htm; DOJ, Letter to American Hotel and Lodging 
Association (Feb. 21, 2012), available at http://www.ada.gov/
ahla_letter_2_21.htm. However, sections 242 and 1009.2 of the 2010 
Standards are silent as to the type of pool lift required and neither 
differentiates between fixed permanent lifts and portable lifts.
    Moreover, DOJ seeks to circumvent public comment on the TA Document 
by specifically limiting the scope of the Notice of Proposed Rule 
Making (NPRM) and advising the public it will not entertain comments on 
anything other than the deadline. DOJ states in the NPRM that it does 
not ``seek comments related to the merits of the requirements 
themselves. . . . [DOJ] will deem any such comments on this NPRM out of 
scope and will not consider them.'' NPRM, 77 Fed. Reg. at 16197. DOJ's 
position on the TA Document is contrary to the APA because DOJ never 
submitted this substantive change through the APA's notice and comment 
rulemaking process, nor through SBREFA.
    DOJ's intention to limit the ability of the public to have notice 
of and comment on the TA Document's applicability creates an 
impermissible restriction on the public's due process rights to 
participate fully in the regulatory process. See, e.g., 5 U.S.C. 
Sec. Sec. 551 et seq. APA section 553 mandates that agencies must 
publish a general notice of a proposed rule in the Federal Register at 
least 30 days before the proposed rule is to take effect. 5 U.S.C. 
Sec. 553(c). The purpose of affording the public an opportunity to 
receive notice of proposed rules and allowing time for comments is ``to 
reintroduce public participation and fairness to affected parties after 
governmental authority has been delegated to . . . agencies,'' and 
``assure[s] that the agency will have before it the facts and 
information relevant to a particular administrative problem, as well as 
suggestions for alternative solutions.''' American Hosp. Ass'n v. 
Bowen, 834 F.2d 1037, 1044 (D.C. Cir. 1987) (internal citations 
omitted).
    DOJ has denied the public and affected stakeholders the opportunity 
to participate fully in the rulemaking process and has circumvented the 
opportunity to provide information regarding reasonable alternatives, 
costs associated with compliance, and impacts on small businesses. The 
TA Document does not qualify as an exception to notice-and-comment 
rulemaking under the APA governing ``interpretive rules, general 
statements of policy, or rules of agency organization, procedure or 
practice.'' 5 U.S.C. Sec. 553(b)(3)(A). That is because the TA Document 
imposes ``substantive rules'' from which legal obligations flow. 
Batterton v. Marshall, 648 F.2d 694, 701-02 (D.C. Cir. 1980). In 
addition, merely because DOJ describes the TA Document as ``technical 
assistance'' developed to ``help educate pool owners and operators,'' 
this is not enough to cure its procedural defects. NPRM, 77 Fed. Reg. 
at 16197. In fact, the document's title, ``ADA 2010 Revised 
Requirements . . .'' puts stakeholders on notice that the agency views 
these as required for compliance. DOJ's own description as ``technical 
assistance'' is unavailing as the TA Document purports to bind 
regulated entities. Gen. Elec. Co. v. EPA, 290 F.3d 377, 382-85 (D.C. 
Cir. 2002).
    In conclusion, NAHB supports an extended deadline for compliance 
with certain requirements of the ADA Title II and III implementing 
regulations, until September 17, 2012, as noted in the NPRM, for the 
purpose of rectifying the disparity between the regulations and 2010 
Standards, and the TA Document. NAHB urges DOJ to withdraw the 2012 TA 
Document to ensure compliance with the APA, and consistency with the 
2010 regulations and the 2010 Standards. In the alternative, if DOJ 
does not withdraw the TA Document, NAHB believes the subcommittee 
should examine DOJ's compliance with the APA and SBREFA.
    NAHB appreciates the opportunity to provide this statement to 
members of the Subcommittee. NAHB looks forward to working further with 
members of Congress, regulatory agencies and other interested parties 
to find solutions to these issues.


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                                <F-dash>

Material submitted by the Honorable Jerrold Nadler, a Representative in 
 Congress from the State of New York, and Ranking Member, Subcommittee 
                          on the Constitution

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
      Prepared Statement of the National Disability Rights Network

    As the nonprofit membership organization for the federally mandated 
Protection and Advocacy (P&A) Systems and Client Assistance Programs 
for people with disabilities, the National Disability Rights Network 
(NDRN) would like to thank Chairman Franks, Ranking Member Nadler and 
the Subcommittee for the opportunity to submit written testimony for 
today's hearing on the Department of Justice's Guidance on Access to 
Pools and Spas under the Americans with Disabilities Act. Over twenty 
years after the passage of the Americans with Disabilities Act (ADA), 
the accessibility of swimming pools and other recreational facilities 
remains a problem for people with disabilities around the country. NDRN 
encourages the Judiciary Committee to work with the Department of 
Justice and with swimming pool owners to ensure that people with 
disabilities are able to enjoy swimming pools and other recreational 
facilities to the same extent as others in our society.
    As a part of the training and technical assistance that NDRN 
provides to the Protection and Advocacy agencies, NDRN holds many face-
to-face meetings in hotels throughout the country. As such, NDRN 
routinely books hotel rooms and wants our staff, the staff of the P&A 
agencies, and other participants to have the opportunity to enjoy all 
the amenities provided by the hotels. As a disability rights 
organization whose staff and membership include people with 
disabilities, we are committed to holding our conferences and meetings 
at locations that provide full accessibility.
    The effective date for swimming pool owners to become compliant 
with ADA standards was originally March 15, 2012, but the Department on 
its own chose to extend that time until May 21, 2012. Based on the 
history of these standards discussed below, NDRN believes that this 
first extension was unnecessary and sees no reason (politically, 
practically, or in the furtherance of public policy) to extend this 
compliance date any longer. The 2010 ADA Accessibility Standards did 
not create the requirement for accessibility for pools and spas; it 
only provides more detailed specifications of how to provide that 
accessibility.
    Protection and Advocacy programs across the country have 
represented people with disabilities seeking access to public swimming 
pools. For example, P&As in Pennsylvania, Ohio, and Colorado have 
successfully negotiated agreements with
    owners of pools to provide pool lifts to allow individuals with 
disabilities to use those pools. Despite these modest successes, most 
people with disabilities throughout the country continue to be unable 
to access swimming pools on the same basis as their non-disabled peers.
    The Department's process to develop accessibility guidelines for 
swimming pools began over 7 years ago on September 30, 2004, when the 
Department published an Advance Notice of Proposed Rulemaking (ANPRM), 
69 FR 58768. This ANPRM requested feedback about the Department's 
proposal to adopt the Access Board's 2004 revisions to the ADA 
Accessibility Guidelines (ADAAG), which included provisions for 
swimming pool accessibility. The Department then published a Notice of 
Proposed Rulemaking almost 4 years ago on June 17, 2008 seeking public 
comment, 73 FR 34508. The Final Rule was formally published in the 
Federal Register on September 15, 2010, 75 FR 56254, and gave owners 
and operators of existing pools 18 months before the specific 
regulations became enforceable.
    Enough time has passed to allow swimming pool owners to make their 
pools comply with the ADA. Over 18 months has passed from the date the 
final rule was announced, over 4 years has passed from first proposal 
of a final rule, and over 7 years has passed from first the first 
proposal to adopt the ADAAG standards for pools and spas. Moreover, the 
requirement to remove barriers to accessibility to swimming pools for 
people with disabilities has been part of the statutory requirement 
under the Americans with Disabilities Act since it was passed in 1990, 
almost 22 years ago. The need for pools and spas to be accessible for 
people with a disability is not some new idea, but one that has been in 
federal law for more than 2 decades.
    Additionally, the Department's regulations provide more than 
sufficient flexibility since the requirement is removal of physical 
barriers that is ``readily achievable,'' or easily accomplishable and 
able to be carried out without much difficulty or expense.
    The swimming pool owners have raised concerns about the Department 
of Justice requirement that they install fixed rather than portable 
lifts. The Americans with Disability Act Accessibility Guidelines, or 
ADAAG, include specific guidelines regarding the installation of pool 
lifts. See http://www.access-board.gov/ada-aba/final.cfm#a1009. 
Generally, portable pool lifts cannot meet the ADAAG standards, because 
they cannot be installed or independently operated by people with 
disabilities. As the Department of Justice has indicated, however, if 
an entity chooses to use a lift complying with the ADAAG standards that 
is removable or otherwise designated as ``portable,'' it may do so, as 
long as while the lift is provided at the pool, it is affixed in some 
manner to the pool deck or apron.
    NDRN is pleased that some members of the hotel industry have 
realized that over the course of 22 years the ADA applies to the 
accessibility of their pools and have taken a proactive approach and 
installed pool lifts. For example, in recent negotiations with a hotel 
chain to hold a conference, NDRN raised the issue of whether the 
swimming pools were accessible for people with disabilities, and were 
assured that all the hotels were in compliance with all current ADA 
laws and regulations concerning the pool and had a pool lift. In 
addition, they were prepared to comply with any and all revisions to 
Title 3 of the ADA that may occur, and took, ``great pride in ensuring 
. . . our properties meet and exceed any government regulation.''
    As NDRN continues to contract for our business meetings as well as 
our staff making their own personal summer travel and vacation plans, 
we believe that people with disabilities should be able to enjoy the 
same recreational amenities and opportunities as every other American. 
Delaying the effective date of the regulations any further will mean 
another season where people with disabilities will be denied the 
opportunity to use pools when they travel on vacations with their 
families or on business. This is unacceptable.




                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               



                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
